<html>
<title> - COUNTERTERRORISM SCREENING AND ASSISTANCE ACT OF 2015; IRAN TERROR FINANCE TRANSPARENCY ACT; AND END NEGLECTED TROPICAL DISEASES ACT</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]








                     COUNTERTERRORISM SCREENING AND
                  ASSISTANCE ACT OF 2015; IRAN TERROR
                   FINANCE TRANSPARENCY ACT; AND END
                    NEGLECTED TROPICAL DISEASES ACT

=======================================================================

                                 MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                                   ON

                   H.R. 4314, H.R. 3662 and H.R. 1797

                               __________

                            JANUARY 7, 2016

                               __________

                           Serial No. 114-134

                               __________

        Printed for the use of the Committee on Foreign Affairs

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

98-188 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001










                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP OF

H.R. 4314, To require a plan to combat international travel by 
  terrorists and foreign fighters, accelerate the transfer of 
  certain border security systems to foreign partner governments, 
  establish minimum international border security standards, 
  authorize the suspension of foreign assistance to countries not 
  making significant efforts to comply with such minimum 
  standards, and for other purposes..............................     2
  Amendment to H.R. 4314 offered by the Honorable Edward R. 
    Royce, a Representative in Congress from the State of 
    California, and chairman, Committee on Foreign Affairs.......    19
H.R. 3662, To enhance congressional oversight over the 
  administration of sanctions against certain Iranian terrorism 
  financiers, and for other purposes.............................    25
H.R. 1797, To facilitate effective research on and treatment of 
  neglected tropical diseases, including Ebola, through 
  coordinated domestic and international efforts.................    44
  Amendment to H.R. 1797 offered by the Honorable Christopher H. 
    Smith, a Representative in Congress from the State of New 
    Jersey.......................................................    68

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE RECORD
                                APPENDIX

Markup notice....................................................    80
Markup minutes...................................................    81
Markup summary...................................................    83
The Honorable Christopher H. Smith:
  Prepared statement.............................................    84
  Material submitted for the record..............................    85

 
                     COUNTERTERRORISM SCREENING AND
                  ASSISTANCE ACT OF 2015; IRAN TERROR
                   FINANCE TRANSPARENCY ACT; AND END
                    NEGLECTED TROPICAL DISEASES ACT

                              ----------                              


                       THURSDAY, JANUARY 7, 2016

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:06 a.m., in 
room 2172, Rayburn House Office Building, Hon. Ed Royce 
(chairman of the committee) presiding.
    Chairman Royce. This committee will come to order.
    Pursuant to notice, we meet today to mark up three bills. 
And, without objection, all members may have 5 days to submit 
statements for the record and any extraneous material on any of 
today's business.
    As members were notified yesterday, we are going to 
consider each bill separately. For each item, after the opening 
remarks by myself and the ranking member, I will recognize any 
member seeking recognition to speak on the bill.
    So, for the purpose of marking up, I now call up H.R. 4314, 
the Counterterrorism Screening and Assistance Act. Without 
objection, it is considered read, and it is open for amendment 
at any point. And also without objection, as members were 
notified yesterday, we are going to consider this item en bloc 
with Royce Amendment 92, a manager's amendment that was 
provided to your offices. And that amendment is in your 
packets.
    [The information referred to follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
 

    Chairman Royce. I now recognize myself to speak.
    So I would like to begin by thanking Mr. Zeldin for his 
work on this legislation. This is the Counterterrorism 
Screening and Assistance Act.
    Last year, the horrific terrorist attack in Paris, I think, 
showed us how easy it has become for terrorists and for foreign 
fighters to move across open borders. This important 
legislation makes several important changes. It requires the 
Departments of State and Homeland Security to produce an annual 
scorecard. That scorecard would assess the border security 
efforts of countries around the world. This will identify 
weaknesses and areas for improvement abroad, and it will 
streamline our own efforts to assist partners overseas with 
border security programs. The administration will then submit a 
plan to Congress for prioritizing U.S. assistance.
    The bill also requires the establishment of minimum 
standards for border security. Countries that fail to meet 
these minimum standards can have U.S. foreign assistance 
suspended, employing the same incentive already in place for 
trafficking and for human rights violations.
    This bill reflects the recommendations made by our 
colleagues on the Committee on Homeland Security's bipartisan 
Task Force on Combating Terrorist and Foreign Fighter Travel, 
which we have worked together on, by the way.
    And I again thank Mr. Zeldin for his leadership on this 
critical issue and recognize Homeland Security Chairman Mike 
McCaul for his efforts on this legislation as well.
    I now recognize the ranking member, Mr. Eliot Engel, for 
his remarks on this legislation.
    Mr. Engel. Thank you, Mr. Chairman. Happy new year to you, 
and happy new year to all the members of our committee. I am 
happy the committee is getting back to work, and I am happy to 
support our first measure today, Mr. Zeldin's bill, the 
Counterterrorism Screening and Assistance Act.
    The United States and our partners need to do whatever we 
can to stop terrorists and foreign fighters from traveling 
across borders. Here at home, this bill would ramp up 
coordination among relevant government agencies. Around the 
world, it would help our partners by speeding up the transfer 
of the software and technology we use to track international 
travel, to collect biometric data, and to assess the risk 
individuals might pose. And this bill would put a particular 
focus on the countries where the danger of terrorists and 
foreign fighters is most acute.
    The bill is certainly a step in the right direction. I 
thank Mr. Zeldin for his hard work. I will support the measure.
    And I yield back, Mr. Chairman.
    Chairman Royce. Mr. Lee Zeldin.
    Mr. Zeldin. Thank you, Chairman.
    Today, I am asking for everyone's support of the 
Counterterrorism Screening and Assistance Act of 2016.
    First off, I would like to thank our committee chairman, Ed 
Royce, and his amazing staff here at the House Foreign Affairs 
Committee. Their incredible leadership and assistance on this 
issue and so many others do so much every day to keep Americans 
safe.
    I also wish to thank Chairman McCaul, who sits on this 
committee and serves as the chairman of the House Homeland 
Security Committee, for his efforts on this very important 
issue as well.
    I also thank the ranking member, Eliot Engel, for his 
support of this effort.
    The Counterterrorism Screening and Assistance Act of 2016 
is so important for resolving the vulnerabilities that 
currently exist with international security abroad which pose a 
concerning threat to our homeland.
    The horrific terror attacks in Paris, France, that killed 
over 100 people were largely carried out by European nationals, 
many of whom traveled to train and fight in Syria and then 
later returned to Europe through Greece and Turkey. Although 
local authorities already knew some of the attackers, they were 
still able to move across borders without detection and, in 
some cases, use fraudulent passports.
    With the rise of terrorism in the U.S. and around the world 
and with the high number of foreign fighters returning from 
ISIS strongholds in Syria, Iraq, and elsewhere, there is a very 
serious and well-recognized need for improved border security 
and information-sharing between governments. It is essential 
that the United States work together with the global community 
to monitor and stop the movement of terrorists abroad.
    The Counterterrorism Screening and Assistance Act of 2016 
would establish a plan to close security gaps that currently 
exist that allow terrorists and foreign fighters to travel 
internationally.
    The plan would establish international border security 
standards that would be developed in coordination with all 
relevant U.S. Government departments and agencies, in 
consultation with the Secretary of Defense, Attorney General, 
Director of National Intelligence, and Director of the FBI.
    Under the plan, U.S. resources would be utilized in the 
most efficient way possible, with a special focus on high-risk 
and medium-risk countries.
    Under this legislation, a reporting system would also be 
established to monitor efforts of foreign governments to combat 
terrorism and foreign fighter travel and to suspend foreign 
assistance to countries not making significant efforts to 
comply.
    Furthermore, the legislation would put a monitoring system 
in place that would screen for infectious diseases to contain 
and prevent any potential outbreaks.
    This is a measure that is long overdue, and I am proud to 
help lead the effort in the House. I strongly encourage my 
colleagues in Congress to join in this effort to address a 
serious national security threat and vote today to pass the 
Counterterrorism Screening and Assistance Act of 2016 to keep 
Americans safe.
    Thank you again, Chairman, for your leadership, and I yield 
back.
    Chairman Royce. Thank you, Mr. Zeldin.
    Do any other members seek recognition?
    Mr. McCaul?
    Mr. McCaul. Thank you, Mr. Chairman. I want to thank you 
for your hard work on this bill, and the ranking member.
    And, of course, this came out of our Counterterrorism Task 
Force, spearheaded by the majority leader. And I think it was a 
great, sort of, concert of work between the Homeland Security 
Committee and this Committee on Foreign Affairs.
    This holiday season provided, I think, further evidence of 
the high terror threat environment that has become a new norm. 
Just last week, authorities in the United States and Europe 
disrupted multiple ISIS plots aimed at innocent civilians 
celebrating the new year.
    Good intelligence, cooperation, and law enforcement 
vigilance helped prevent these potential massacres, but our 
enemies are still dead-set on conducting external operations 
against us, and they are more capable than ever of doing so.
    ISIS has now inspired or directed nearly 70 terrorist plots 
or attacks against Western countries, and, as we saw on the 
streets of Paris, they are deploying some of their 30,000 
foreign fighters to carry out operations across the world. As 
we all now know, it is too easy for these extremists to get to 
and from terrorist hotspots undetected. Indeed, the mastermind 
of the Paris attacks bragged on ISIS' online magazine, and I 
quote, ``I was able to leave and come despite being chased 
after by so many intelligence services.''
    As chairman of the House Homeland Security Committee, last 
year I launched a bipartisan Task Force on Combating Terrorist 
and Foreign Fighter Travel to examine this threat. The panel 
conducted the widest review on the subject since the 9-11 
Commission. They uncovered shocking security gaps, especially 
overseas. For instance, many countries lack effective 
counterterrorism vetting systems. They fail to screen travelers 
against key law enforcement databases or do little to stop 
passport fraud. Make no mistake, these weaknesses overseas put 
us in danger here at home.
    Our task force issued more than 50 recommendations to close 
security loopholes, and this legislation today by Mr. Zeldin 
implements several of them. It will help our allies put in 
place effective counterterrorism tools to more quickly ramp up 
screening of foreign travelers. It will also reduce U.S. 
Government waste, overlap, and duplication. For example, the 
bill requires agencies for the first time ever to coordinate 
and streamline their numerous assistance programs and to focus 
resources on the highest-risk countries.
    I want to commend John Katko, who led the Task Force on 
Combating Terrorist and Foreign Fighter Travel, and then also 
Mr. Zeldin from New York for his hard work on this bill. I 
would like to thank this committee, also, again, for their 
close collaboration with my committee.
    We have a lot more work to do, but I believe this is a very 
important step in keeping terrorists and foreign fighters from 
getting into the United States and from threatening Americans.
    And, with that, I yield back.
    Chairman Royce. Any other members seeking recognition?
    Judge Poe.
    Mr. Poe. I want to thank the chairman.
    As chairman of the Terrorism Subcommittee, Ranking Member 
Keating and I have had numerous hearings on the problem of 
foreign fighters traveling to Iraq and Syria to fight for ISIS 
and then going back to home countries. They are coming into 
Syria by the tens of thousands. It is a pace so high that just 
as many new fighters are coming in as our strikes are killing. 
These fighters are dangerous because, unlike local fighters, 
they easily launch attacks back in their home countries, 
primarily the West. We know there are dozens of Americans 
fighting in Iraq and Syria right now.
    I do want to thank the chairman and ranking member for 
passing out of this committee and on the House floor the 
Foreign Terrorist Organization Passport Revocation Act, which 
helps stop the flow of foreign fighters back here into the U.S. 
by revoking their passports. And hopefully the Senate will take 
this bill up soon.
    I support the Counterterrorism Screening Assistance Act 
because the foreign-fighter problem is not a problem we can 
solve by ourselves. We need our partners to have a strong 
border security. We should not be giving any foreign aid to 
countries who do not take this threat seriously.
    And I will yield back.
    Chairman Royce. Mr. Rohrabacher was seeking recognition.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    First of all, I would like to thank you and Ranking Member 
Engel for the great leadership that you are providing to our 
country at this pivotal moment in our history when our people 
are in danger. And you and Mr. Engel have shown the bipartisan 
spirit that I think could give confidence to our people that 
their elected Representatives are united to defeat this threat 
that would murder our children if they had the chance.
    I would also like to congratulate Chairman McCaul for the 
energetic leadership that he is providing on that half of this 
operation to protect our people.
    But I would like to add one note here on this bill and to 
our approach. I was somewhat shocked to find out that lie-
detector tests are playing such a small role in trying to help 
us accomplish our mission.
    And all I can say is that I may have an amendment that I 
would provide on the floor, if it is considered a legally 
acceptable amendment, that would in some way require us--I 
mean, when we are talking about screening for terrorism, at the 
very least anybody coming here should have to go through, like, 
a 5-minute lie-detector test. We have new lie-detector 
technologies that are very simple and don't have to have, you 
know, three or four people there--you have one person--and we 
can tell if someone is lying to us.
    No one--no one--should come into this country, who has any 
potential of being involved with terrorism, without taking a 
lie-detector test. That could have stopped--for example, in San 
Bernardino, all we needed to do was ask that lady who was 
getting her visa to come in, just ask, ``Would you be inclined 
to commit an act of violence against Americans?'' And if the 
answer is yes, of course we are not going to let that person 
in. Right now, we do not have that screening.
    So, Mr. Chairman, both Mr. Chairmans, I hope that we can 
work together so that within a very short period of time people 
who are coming from these terrorist countries, in particular, 
but perhaps on a global scale--is there any reason why, when 
they are asking for a visa, we can't just ask two or three 
questions on a very cheap lie-detector machine? Because they 
are now available. So that would be my goal. I am looking 
forward to working with both of you to see if we can implement 
that.
    By the way, just to note, this was Ken Calvert's idea. And 
when he said that to me, I just said, ``That is terrific,'' and 
that is why I am running with it.
    So thank you.
    Chairman Royce. Thank you, Mr. Rohrabacher.
    Any other members seeking recognition?
    Hearing none, the question occurs on agreeing to the bill 
en bloc.
    All those in favor, say aye.
    All those opposed, no.
    In the opinion of the Chair, the ayes have it, and the en 
bloc items are agreed to.
    Without objection, this legislation, H.R. 4314, is ordered 
favorably reported, as amended. Staff is directed to make any 
technical and conforming changes. And the Chair is authorized 
to seek House consideration under suspension of the rules.
    All right. Moving on to the next bill, this is H.R. 3662, 
the Iran Terror Finance Transparency Act. Without objection, 
the bill is considered read and open for amendment at any 
point.
    [The information referred to follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    


    Chairman Royce. And I would recognize myself to speak here.
    First, I want to recognize Congressman Russell for his work 
on this legislation.
    Since the Obama administration completed the Iran nuclear 
deal, Iran has taken a series of steps that I think were 
unanticipated by most of us. It has accelerated its missile 
program; it has violated the U.N. sanctions in doing so. It has 
taken an additional American hostage. It has stepped up the 
slaughter that is going on in Syria. Recently, we watched on 
television the torching of the Saudi Embassy, with the 
authorities arriving there too late after that. And we saw the 
launch of a rocket within 1,500 yards of our carrier, the 
Truman, in the Gulf.
    So the situation is such that these violations of U.N. 
sanctions are coming at the same time when, in a few weeks, 
Iran is going to receive out of escrow tens of billions in 
sanctions relief. So the question here is one of pushback, 
given the violation of U.N. sanctions.
    Indeed, reported sanctions on Iran's missile network were 
just shelved. There was an intention--Congress had been 
notified or the indication was that this condition was going to 
be taken, and then a decision was made, after pushback from 
Iran, not to go forward.
    So, as members will recall from Secretary Kerry's testimony 
before us, it was not supposed to be this way. The 
administration told us while pursuing a nuclear deal that it 
would not let up the pressure on Iran's ballistic missile 
program, nor would it let up the pressure on terrorism that was 
supported by Iran. And that is the point here of this 
legislation. And it is an attempt here to hold Iran to this 
commitment.
    Before sanctions on a particular person or institution can 
be lifted, the President must certify that they have not done 
business in a way that supported Iran's ballistic missile or 
conventional weapons programs--after all, it is supposed to be 
5 years on the conventional and 8 years on the ballistic 
missiles before Iran is able to go forward, according to the 
U.N. sanctions on that--nor that that individual has done 
business with a terrorist organization--you know, for example, 
the Quds Force, which Soleimani is responsible, literally, for 
assassinations outside of Iran. That is his job description. 
And so connection with that, those individuals should still be 
on that list.
    Unfortunately, we now understand that some of those set for 
sanctions relief--and we will take an example of one of their 
banks. Iran's Bank Melli will be given a pass for backing 
ballistic missile development and also, by the way, backing 
terrorism. And when the Treasury Department sanctioned Bank 
Melli back in 2007, it noted that the institution had provided 
banking services first to the Iranian Revolutionary Guard Corps 
and then to the Quds Force. And, as we all know, the IRGC has 
committed acts of terrorism, gross human rights violations, and 
has done the missile tests that we saw very recently, in 
violation of the U.N. sanctions.
    Bank Sepah, one of Iran's largest banks, will be another 
prime winner of sanctions relief in the coming days. And when 
that bank was designated, again, January 2007, Treasury Under 
Secretary Stuart Levey at the time noted, ``Bank Sepah is the 
financial lynchpin of Iran's missile procurement network, and 
it has actively assisted Iran's pursuit of missiles capable of 
carrying,'' in his words, ``weapons of mass destruction.''
    With Iran's ballistic missile program accelerating, 
including a December rocket launch, again, that came within 
1,500 yards of our carrier, is anyone comfortable giving what 
Treasury called the ``financial lynchpin'' here a jackpot?
    To be clear, those Iranian banks and individuals not 
supporting terrorism, not supporting ICBMs, they can be 
delisted. That is the agreement. They should be delisted. But 
not so for those threatening our national security. That is 
what this legislation does.
    And it is the policy the administration explained to this 
committee as the way that the agreement was structured, the way 
that our conduct was supposed to be structured going forward 
that, frankly, this legislation attempts to implement here.
    So I now recognize the ranking member for his remarks on 
the bill.
    Mr. Engel. Thank you very much, Mr. Chairman.
    As I have said many, many times, I am so proud of this 
committee and its members on both sides of the aisle. We are 
really an exception to the typical partisan fighting the 
American people so often unfortunately associate with Congress. 
And under your leadership, Mr. Chairman, we have taken up bill 
after bill with bipartisan backing; we have carried out 
oversight on key national security objectives; we haven't 
wasted our times on political targets, as so many other 
committees have done; and we have embodied the spirit that 
politics should end at the water's edge. I have used that 
phrase many, many times. And, as you know, Mr. Chairman, I 
profoundly value our personal friendship and our excellent 
working relationship.
    I must say, though, that I have to oppose this bill. This 
bill is an exception, I think, to bipartisanship, in that no 
Democrats were consulted in terms of the drafting of the bill. 
I know the bill is well-intended, but it isn't done the way 
things should be done, where we put our heads together in a 
bipartisan fashion, we come up with a bill, and we go back and 
forth and eliminate some things, add some things, and move 
forward in a bipartisan way.
    This measure really has no chance of becoming law. And what 
bothers me--you know, yesterday, we had a vote on the 
Affordable Care Act to repeal it 62 times. Now this is the 
second time we have tried to overturn the JCPOA agreement.
    Everyone in this room knows how I feel about Iran. I 
thought we were wrong to allow Iran to continue enriching 
during the talks. I voted against the nuclear deal, and I 
continue to believe that the agreement is deeply flawed. I see 
Iran for what it is: The world's leading state sponsor of 
terrorism and a destabilizing force across the Middle East.
    But Congress had an opportunity to vote on the deal, and we 
lost. There weren't enough votes to override a veto or even 
send a resolution of disapproval to the President, and the 
agreement has now gone into effect. I believe it doesn't serve 
any purpose to have bills like this that are designed to kill 
the deal.
    I don't want to vote 62 or 63 times on killing the Iran 
agreement. We already had had one several months ago, and this 
is now the second one, and I am afraid we are following the 
same path that we are following with the Affordable Care Act. 
Congress has spoken, and it is done.
    And I think that we have to work together on bipartisan 
legislation that will hold Iran's feet to the fire on its 
nuclear program and hold the regime accountable for its support 
of terrorism and other nefarious activities and also to help 
our ally Israel with her legitimate security needs.
    So I don't think it serves any purpose to take up a 
partisan bill like this that is designed to kill the deal. We 
know it is not going to go anywhere. We know that if it passes 
both Houses the President will veto it.
    I would rather put our heads together, as we have done so 
many times in the past 3 years, to work together to have a 
bipartisan bill that achieves what we all want on both sides of 
the aisle. We want to hold Iran's feet to the fire. We want to 
make sure that they are sanctioned again for other things than 
the nuclear capabilities, that they are sanctioned for their 
support of terrorism, and that we have to continue to hold 
their feet to the fire.
    I was disappointed that the administration this week 
mentioned that it was going to impose some sanctions on Iran 
and then seemed to pull it back. We have to hold Iran's feet to 
the fire.
    But the only way we can effectively do that is in a 
bipartisan way. So we have been working; my staff has been 
working. We are trying to come up with legislation. We have 
gone a long way. And I would hope that, ultimately, we can 
introduce this legislation with you, Mr. Chairman, with me, 
working together in one bill, with other members of this 
committee working together with one bill.
    I would like to do what we did in this committee, where we 
have repeated so many times--and it almost sounds unbelievable. 
If people had listened to Chairman Royce and myself back in 
2013 when this committee unanimously, with not one negative 
vote, passed an additional Iran sanctions bill, which we were 
proud of, and then it passed on the floor with 400 ``yes'' 
votes. That is the kind of bipartisan bill I would like to see 
us do now to hold Iran's feet to the fire.
    So there is no shortage of good ideas as to how to achieve 
these goals, and we can do this. So I am going to oppose this 
bill. I hope that we can, again, get together and come up with 
a bill that does what this bill does. But a bill like this, 
which has sponsors only from one of the political parties--all 
the sponsors are Republicans. And to be fair to Mr. Russell, he 
did ask me about going on the bill, but Democrats had no part 
in drafting the bill, no part in formulating the bill. And if 
we are going to have something that moves forward and makes 
sense, we have to do it in a bipartisan way. And, 
unfortunately, I don't believe this is the way to go about it.
    So I am going to oppose it. I hope we can pick up the 
pieces because, again, the President will surely veto this if 
it pass both houses. And I am hoping to come up with a bill 
that the administration can understand that we in the Congress 
feel very strongly about holding Iran's feet to the fire.
    Mr. Chairman, everything you said, I agree. Everything you 
mentioned, I agree. Everything you talked about, with the 
threat to Iran, I agree. I just don't believe this is the way 
to go about doing it.
    Thank you. I yield back.
    Chairman Royce. Thank you, Mr. Engel. We have mainly 
produced bipartisan legislation on this committee. That is my 
preference. It is the preference of the ranking member, I know.
    Any additional members seek recognition?
    Judge Ted Poe.
    Mr. Poe. Thank you, Mr. Chairman.
    I was one who voted against the Iranian deal. I thought it 
was a bad deal. But Mr. Engel is right; it is a deal that is 
made with America and Iran.
    But the situation is getting worse under the deal. The 
administration is bending over backwards and conceding even 
more than what is required in that deal. It may be hard to 
believe, but, as bad as the deal was, the administration is, it 
seems to me, making it worse. And I think Congress has an 
obligation to speak out because it is a national security 
issue.
    The President promised that the non-nuclear-related 
sanctions on Iran would still be in place. And after Iran 
violated a U.N. resolution restricting ballistic missiles, the 
Treasury Department told Congress it would levy new sanctions 
on Iran for these violations. But then the State Department 
came swooping in at the last minute and stopped those sanctions 
from being implemented. So it seems that the administration 
continues to give in to Iranian pressure.
    I support H.R. 3662 because it prohibits the President from 
lifting sanctions on those who are involved in terrorism. Iran 
is the world's leader of state sponsors of terrorism. The 
nuclear deal was a bad deal, and we don't need to make this 
deal worse by lifting sanctions in unrelated matters.
    And I will yield back.
    Chairman Royce. Other members seeking recognition?
    Mr. Sherman.
    Mr. Sherman. Mr. Chairman, you have seen me on this 
committee for almost 20 years. I have always voted for every 
Iran sanctions bill--big ones and small ones, those that were 
the product of great drafting, those that were the product of 
mediocre drafting--and I asked only why we couldn't make the 
bill stronger. This committee should craft good legislation to 
impose additional sanctions on Iran.
    First, the question was, do sanctions work? Well, we just 
concluded a deal in which this House and this Government was 
incredibly divided. The only thing we agreed on was one thing, 
and that is sanctions worked. President Obama came to us and 
said, sanctions have worked, and he had secured for us a very 
good deal. Those on the other side said, sanctions are working, 
keep them in place, you will get a better deal. Those sound 
like diametrically opposed positions except they both indicate 
that Iranian sanctions worked.
    Secretary Kerry was here. President Obama talked to us in 
so many ways. And they said they left out of these negotiations 
missiles, terrorism, and then four--today it is five--American 
hostages because we could use sanctions to achieve those goals 
separately. That is why we ought to be adopting new sanctions. 
So the question is, do we do it through this bill at this time?
    Now, I think Mr. Russell has some good ideas. And if we do 
not pass this bill, we ought to incorporate the best of those 
in a bipartisan piece of legislation and thank him for his 
effort.
    This bill has some flaws. As the ranking member points out, 
it is the product of a uni-party rather than bipartisan 
process. We will do better if we work together.
    Second, it is my understanding that this bill focuses on 
the 400 entities listed in the JCPOA, this Iran deal, that are 
supposed to have their sanctions lifted but does not deal with 
300 others, roughly 300 others, that were not specifically 
listed. So we are using the power of Congress to go after those 
Iranian entities that our negotiators thought should be given a 
lifting of at least the nuclear sanctions, and we are not going 
after the perhaps even worse roughly 300 entities.
    In addition, we are asking the President to certify that 
entities have not engaged in various activities since the 
beginning of time. This bill would be more reasonable if it was 
crafted to say has not engaged in such activities for the last 
10 years or the last 15 years.
    So I look forward to better Iran sanctions legislation. 
Although I will point out one thing about the timing of this 
bill. Iran's stockpile of enriched uranium has now been shipped 
out of the country, virtually all that they promised to ship 
out.
    So we have already gotten the good parts of this deal. If 
Mr. Machiavelli were advising us, he would say now is the 
precise time to pull out of the deal, since we have gotten the 
good parts delivered to us already. I don't think that is the 
process America will take. I do not think that this is a--that 
this is like a spectacularly well-timed bait-and-switch program 
with the Iranians.
    So I look forward to a better process. I look forward to a 
better deal. I will reluctantly oppose this bill. And I think 
in the future we need sanctions designed, as the President 
promised we would have, to change Iran's behavior in supporting 
terrorism, in seizing hostages, and in developing missiles in 
violation of U.N. sanctions.
    And let me say that if Iran never had a nuclear program but 
engaged in violating U.N. sanctions on missiles, seized 
American hostages, and killed tens of thousands of people in 
Yemen and Syria, we would be imposing sanctions. We shouldn't 
fail to do so simply because a deal strictly designed to focus 
on their nuclear program was signed by the President but not 
endorsed by Congress.
    I yield back.
    Chairman Royce. Do any other members seek recognition?
    Hearing none--Mr. Deutch.
    Mr. Deutch. Thank you. Thanks, Mr. Chairman.
    Mr. Chairman, as you know, I deeply appreciate the 
commitment that you and the ranking member share to prevent 
Iran from acquiring nuclear weapons. This committee has been 
vigilant in its oversight and has worked in a bipartisan 
fashion to move numerous pieces of legislation that have had 
significant impact on Iran's nuclear activities.
    But, unfortunately, today's legislation doesn't advance our 
shared goal of preventing Iran from acquiring nuclear weapons 
or halting Iran's dangerous and destabilizing regional 
activities.
    I opposed the nuclear deal, and, in doing so, I laid out my 
express concern that sanctions relief would only further Iran's 
unyielding support for terrorism and its regional belligerence. 
And those concerns haven't changed. Iran's bellicosity 
continues. In the last 3 months, Iran has launched two 
ballistic missile tests in blatant violation of U.N. Security 
Council resolutions, and it has done so with impunity from the 
international community.
    And if the U.N. Security Council fails to punish Iran for 
its violations, the United States must act. In fact, 
Representative Kennedy and I wrote to the President more than a 
month ago, asking him to take appropriate action to punish Iran 
for these missile tests. And based on this week's public 
statements from the White House, I am confident the 
administration will do so.
    I also expressed directly to the administration the need to 
ensure that any entity that is subject to sanctions removal 
under the nuclear deal be carefully investigated and 
resanctioned if they are found to be engaging in support for 
terrorism or human rights abuses.
    This bill, unfortunately, doesn't give us the tools to do 
that. Instead, it halts the removal of sanctions on those 
specific 400 entities named for sanctions relief in the JCPOA 
until the President can certify that these entities have never 
engaged in activities related to terrorism or the development 
of weapons of mass destruction.
    This standard will result only in the administration 
devoting significant time and resources to a certification that 
can never be met, while preventing the implementation of the 
JCPOA. I believe that we should instead be ensuring that the 
Treasury Department has the resources it needs to build rock-
solid cases against those entities that must be redesignated 
for terrorism and human rights abuses.
    Let's devote the necessary resources to sanctioning 
individuals and entities who support terrorism and violate 
human rights, rather than spreading them out in a way that is 
going to make that more difficult. Going forward, we should be 
giving this and future administrations all the resources needed 
to ensure that those subject to sanctions under U.S. law pay 
the price for bad behavior.
    I have also, Mr. Chairman, repeatedly made the case for 
economic sanctions against Iran and its terror allies. As one 
of the original sponsors of the Hezbollah International 
Financing Prevention Act, which was signed into law by 
President Obama last month, we aimed to cut off Iran's terror 
proxy from the international financial system.
    This bill purports to prevent banks from financing Iran's 
terror agenda by amending one of the most important economic 
sanctions laws on the books, the Comprehensive Iran Sanctions, 
Accountability, and Divestment Act of 2010.
    I was proud to be a member of this committee when we passed 
CISADA, and, under that legislation, banks facilitating 
transactions that supported Iran's efforts to acquire WMDs, 
finance terror, launder money, support the IRGC, et cetera, 
will be denied access to U.S. financial markets. In fact, 
section 104 of that bill specifically refers to entities that 
provide support for organizations designated as foreign 
terrorist organizations under section 219(a) of the Immigration 
and Nationality Act.
    The bill before us today adds the Iranian terror proxies 
Hezbollah, Hamas, and Palestinian Islamic Jihad to CISADA. Now, 
of course, we want to stop banks from facilitating transactions 
to these terrorism organizations, but, unfortunately, some of 
our European friends distinguish between the military and 
political wings of terrorist groups. They shouldn't, and I have 
spoken out against this artificial distinction. But whether we 
agree with that policy or not--and I have taken numerous 
actions over the years to convince our European friends that 
there is no distinction between a political wing and a military 
wing of a terror group--they are following EU law. And because 
of this discrepancy, by naming these specific groups in CISADA, 
as this bill does, it would have the potential to cut off 
European banks from the U.S. financial system.
    And even as we continue to urge them to recognize that a 
terrorist group is a terrorist group, we also ought to be 
working with our allies to craft the toughest sanctions to 
crack down on Iran's dangerous activities, and let's not lose 
that necessary focus on Iran.
    Finally, whether you supported the nuclear deal or not--
and, again, I didn't--it is going forward. So instead of 
looking for partisan ways to try to stop the deal, we should be 
looking for bipartisan ways to try to ensure that it is 
enforced with vigor and with the most stringent verification 
and compliance and, if a violation occurs, that we have the 
tools and the teeth behind those tools to enact punishing new 
sanctions, hopefully with the support of our international 
partners, but, if not, then certainly with the full weight of 
the United States Government, and, finally, to be certain that 
sanctions arising from terrorism and human rights abuses that 
were never a part of the nuclear deal are fully enforced.
    I hope, Mr. Chairman, this committee continues to live up 
to its reputation as the most bipartisan committee in Congress 
and that we work together to craft legislation that honors our 
most solemn duty: To protect the national security interests of 
this country.
    And I yield back.
    Chairman Royce. Thank you, Mr. Deutch.
    Mr. Trott.
    Mr. Trott. I want to thank Representative Russell and 
Chairman Royce for scheduling this markup.
    This deal was a bad deal in September; it was a bad deal in 
October when we considered it. The deal is predicated on Iran 
becoming a productive member of the world community. We are 
about 2 months into the deal, and, as has been duly noted by 
both sides of this committee, Iran's behavior has gotten worse.
    It is also clear that the President--probably because if he 
took any action with respect to this deal he would be admitting 
failure and be admitting that he made a mistake--it is clear 
the President will not take action to enforce the terms of the 
deal. So we in Congress have to do something.
    I am supporting H.R. 3662 because we in Congress have to 
take advantage of every opportunity we can to remind the 
President and remind the world you cannot do a good deal with a 
bad guy. And so if Ranking Member Engel is correct and the 
President vetoes this bill, then I look forward to working on 
any and all bipartisan legislation that can protect us and the 
world from Iran.
    I yield back.
    Chairman Royce. Mr. Connolly?
    Mr. Connolly. Thank you, Mr. Chairman.
    I simply want to add my voice to that of Mr. Engel, Mr. 
Deutch, Mr. Sherman. I also share concerns about Iranian 
behavior and want to find efficacious and bipartisan ways to 
address that.
    This is not one of those. This is an attempt to embarrass 
and to undermine. And that is not how we ought to be doing 
business in this committee, and it is not how the Congress, as 
a legislative entity, a branch of government, ought to be 
contributing to American foreign policy.
    Whatever happened to the Arthur Vandenberg standard that 
our differences end at the water's edge? That was a good 
standard that helped create a much more stable foreign policy 
for decades.
    So we can yield to this temptation today and make a point, 
but at what expense?
    The gentleman indicated that the President will veto this 
bill and then he looks--then--he looks forward to working in a 
bipartisan basis to find solutions. How about now? How about, 
just once, resisting the temptation to engage in partisan 
activity, especially when it comes to foreign policy?
    That is not the standard we have set on this committee. I 
applaud the chairman and the ranking member for setting a much 
more civil and thoughtful standard on this committee. 
Unfortunately, this bill is an exception to that otherwise 
commendable approach to a very important subject.
    I yield back.
    Chairman Royce. Thank you, Mr. Connolly.
    Do any other members seek recognition to speak on the bill?
    Hearing no further requests for recognition on the 
underlying bill, are there any amendments?
    Hearing no further requests and seeing that a quorum is 
present, the Chair now moves that H.R. 3662 be favorably 
reported to the House.
    All those in favor, say aye.
    All those opposed, no.
    In the opinion of the Chair, the ayes have it, and H.R. 
3662 is ordered favorably reported to the House.
    I have been notified that some of our members may wish to 
file additional minority or dissenting views regarding this 
bill as part of the committee report, as allowed by the House 
and committee rules. If at all possible, I would ask that you 
transmit any such views to the committee clerk by 4 p.m. on 
Friday. And I want to remind members that such views should be 
personally signed by the member in order to be included in the 
report.
    I now call up our third bill, last bill, H.R. 1797, the End 
Neglected Tropical Diseases Act. Without objection, it is 
considered read. It is open for amendment at any point.
    And also without objection, as members were notified 
yesterday, we will consider it en bloc with Smith Amendment 73, 
which was provided to your offices on Tuesday.
    [The information referred to follows:]
    
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   

    Chairman Royce. And I will now recognize myself.
    This bill is the End Neglected Tropical Diseases Act. It 
will better target and coordinate our ongoing efforts to treat 
and control and eliminate neglected tropical diseases, which 
affect 1 billion people on this planet. It exacts a devastating 
human and economic toll.
    And these tropical diseases tend to prey on the world's 
most vulnerable, on people living in extreme poverty in 
developing countries, but they also pose a public health threat 
here in the United States. As we speak, Hawaii is enduring an 
outbreak of dengue fever. And that was introduced through 
international travel.
    So the bill contains two titles. Title I falls under the 
jurisdiction of the Foreign Affairs Committee and is what we 
are considering today. And we look forward to working with the 
Energy and Commerce Committee on Title II.
    We really, all of us, I think, want to thank Mr. Smith for 
his work on this important bill.
    And I now recognize the ranking member to speak on the 
bill.
    Mr. Engel. Thank you again, Mr. Chairman. I want to also, 
as you just did, thank Mr. Chris Smith for offering the End 
Neglected Tropical Diseases Act.
    When we use this term, ``neglected tropical diseases,'' we 
are talking about infectious diseases that thrive in tropical 
and subtropical areas. They are spread not just by humans but 
through animals and also through infected soil or water. These 
diseases take a particularly high toll on poor populations in 
developing countries.
    Diseases like these stifle growth and progress even when we 
know how to treat them. That is why, a decade ago, President 
Bush launched the Neglected Tropical Diseases Program at USAID. 
The Obama administration carried this work forward, and, by 
2014, this effort has led to 1 billion treatments worldwide. 
So, again, talk about bipartisan cooperation.
    Now we need to stay focused on this work. Mr. Smith's bill 
would make sure our existing efforts to deal with these 
diseases are working to get treatments where they are needed 
most and as quickly as possible. It also supports continued 
research and development at USAID so that we can stay on the 
cutting edge of diagnostic methods and treatment options.
    Let me also note that the challenges posed by neglected 
tropical diseases intersect with our other global health 
priorities--priorities such as AIDS, tuberculosis, and malaria 
relief. It is important not to focus our energies on one 
challenge at the expense of another but instead recognize 
opportunities for collaboration across health and development 
programs. Only when programs work efficiently and in concert 
can they bring timely and complete relief to patients.
    So I believe we should all support this bill and build on 
our record of success in this area.
    Thank you, Mr. Chairman. I yield back.
    Chairman Royce. Thank you, Mr. Engel.
    Mr. Smith.
    Mr. Smith. Thank you so much, Mr. Chairman. Thank you for 
your strong support for this legislation, and Ranking Member 
Engel, for Joan Condon's wonderful work, Catherine Barnao, and 
Greg Simpkins on my staff.
    This is a truly bipartisan piece of legislation attacking a 
terrible pandemic that has cost the lives of millions of people 
and made people extremely ill--the morbidity rate is very, very 
high--and susceptible to a great number of opportunistic 
diseases that hit when people carry worms and parasites.
    And the numbers are off the charts, in terms of people who 
have neglected tropical diseases. One-point-four billion people 
is the estimation by the World Health Organization, and about 2 
billion people, mostly very poor, are at risk.
    Although we are finding that tropical diseases know no 
borders. And they have found their way big time, as you pointed 
out, in Hawaii with dengue fever, but a large number of other 
tropical diseases have made their way particularly into the 
southern parts of the United States--Chikungunya, as well as 
Ebola, although a very, very limited amount there, of course.
    These diseases need to be attacked in the greatest way 
possible. My subcommittee has had five hearings on tropical 
diseases. One of our star witnesses was Dr. Peter Hotez, who 
literally wrote the book, from Baylor, and has done wonderful 
work in terms of delineating the challenges as well as the huge 
gaps that remain.
    So, again, we are going to do everything we can with this 
legislation to try to be an all-of-Government effort--from CDC, 
HHS. And, as you pointed out, Title II of the bill has been 
referred to the Energy and Commerce Committee. And one of the 
provisions there is to establish a center or centers of 
excellence devoted to researching, preventing, and hopefully 
treating these NTDs, because they are taking the lives of so 
many people.
    So I thank you again, Mr. Chairman.
    Without objection, I would ask that my statement be made a 
part of the record.
    This is a bipartisan bill, as I pointed out. And I do want 
to thank Chaka Fattah, the chief Democrat cosponsor; Matt 
Salmon, who has done yeoman's work on this issue and cares 
deeply about it; Mr. Johnson, Mr. Meadows, Rangel, and Walberg; 
my ranking member, who is also a cosponsor, for her support for 
it.
    And, again, we need to move this forward. And I think it 
will literally save many lives, not around the world only, but 
in this country as well.
    I yield back.
    Chairman Royce. Thank you, Mr. Smith.
    Any other members seeking recognition?
    Hearing no further requests, are there any additional 
amendments?
    Hearing none, the question occurs on agreeing to H.R. 1797 
en bloc.
    All those in favor, say aye.
    All those opposed, no.
    In the opinion of the Chair, the ayes have it, and the en 
bloc items are agreed to. And, without objection, 1797 is 
ordered favorably reported, as amended. And staff is directed 
to make any technical and conforming changes.
    So that concludes our business for today. And I want to 
thank Ranking Member Engel and I want to thank all of you on 
the committee and our staff for the work that went into today's 
markup.
    The committee is adjourned.
    [Whereupon, at 10:57 a.m., the committee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
         
     [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
         
         
                                 [all]
</pre></body></html>
